CREDIT CARD DISCLOSURE
Interest Rates and Interest Charges
Annual Percentage Rate
VISA Platinum: 9.99% to 18.00% when you open your account,
(APR) for Purchases
based on your creditworthiness.
VISA Gold: 10.99% to 18.00% when you open your account, based
on your creditworthiness.
VISA Classic: 11.99% to 18.00% when you open your account,
based on your creditworthiness.
APR for Balance Transfers
APR for Cash Advances

Balance transfers are considered cash advances. (See next line)
8.49%
The APR will vary. The APR is the prime rate as published in the Wall Street
Journal on the last day of the month, plus 4.99%.
Not applicable

Penalty APR and When it
Applies
How to Avoid Paying Interest Your due date is at least 25 days after the close of each billing cycle. We will
not charge you any interest on purchases if you pay the entire balance by the
on Purchases
due date each month.
Minimum Interest Charge

None

For Credit Card Tips from the To learn more about factors to consider when applying or using a credit card,
Federal Reserve Board
visit the website of the Federal Reserve Board at
http://www.federalreserve.gov/credit card
Fees
Transaction Fees
· Cash Advance
· Foreign Transaction
Penalty Fees
· Late Payment
· Returned Payment
Other Fees
· Annual Fee

$2.00
2% of the amount of each foreign currency purchase after its conversion to US
currency
up to $25.00
up to $25.00

VISA Classic: $10.00; VISA Gold and Platinum: $20.00. Waived if member
has direct deposit.
· Card Replacement
$10.00
How We Will Calculate Your Balance: We use a method called 'average daily balance (including new
purchases).'
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided
in your disclosure agreement.
Maximum Credit Limits: VISA Classic: $10,000; VISA Gold or Platinum: $25,000
This information about the costs of the cards describes in this disclosure is accurate as of the date printed below.
This information may have changed after that date. To find out what may have changed, contact Member
Services at 800-338-0221, ext. 9829, or info@rtn.org.
Rate sheet as of: 3/1/2016
Page 3 of 3

